<html>
<title> - PRIVATE SECTOR LUNAR EXPLORATION</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                    PRIVATE SECTOR LUNAR EXPLORATION

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON SPACE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 7, 2017

                               __________

                           Serial No. 115-27

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


       Available via the World Wide Web: http://science.house.gov
       
       
                              __________
                                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
27-174PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e582958aa5869096918d808995cb868a88cb">[email&#160;protected]</a>       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         ZOE LOFGREN, California
MO BROOKS, Alabama                   DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             SUZANNE BONAMICI, Oregon
BILL POSEY, Florida                  ALAN GRAYSON, Florida
THOMAS MASSIE, Kentucky              AMI BERA, California
JIM BRIDENSTINE, Oklahoma            ELIZABETH H. ESTY, Connecticut
RANDY K. WEBER, Texas                MARC A. VEASEY, Texas
STEPHEN KNIGHT, California           DONALD S. BEYER, JR., Virginia
BRIAN BABIN, Texas                   JACKY ROSEN, Nevada
BARBARA COMSTOCK, Virginia           JERRY MCNERNEY, California
BARRY LOUDERMILK, Georgia            ED PERLMUTTER, Colorado
RALPH LEE ABRAHAM, Louisiana         PAUL TONKO, New York
DRAIN LaHOOD, Illinois               BILL FOSTER, Illinois
DANIEL WEBSTER, Florida              MARK TAKANO, California
JIM BANKS, Indiana                   COLLEEN HANABUSA, Hawaii
ANDY BIGGS, Arizona                  CHARLIE CRIST, Florida
ROGER W. MARSHALL, Kansas
NEAL P. DUNN, Florida
CLAY HIGGINS, Louisiana
RALPH NORMAN, South Carolina
                                 ------                                

                         Subcommittee on Space

                     HON. BRIAN BABIN, Texas, Chair
DANA ROHRABACHER, California         AMI BERA, California, Ranking 
FRANK D. LUCAS, Oklahoma                 Member
MO BROOKS, Alabama                   ZOE LOFGREN, California
BILL POSEY, Florida                  DONALD S. BEYER, JR., Virginia
JIM BRIDENSTINE, Oklahoma            MARC A. VEASEY, Texas
STEPHEN KNIGHT, California           DANIEL LIPINSKI, Illinois
BARBARA COMSTOCK, Virginia           ED PERLMUTTER, Colorado
RALPH LEE ABRAHAM, Louisiana         CHARLIE CRIST, Florida
DANIEL WEBSTER, Florida              BILL FOSTER, Illinois
JIM BANKS, Indiana                   EDDIE BERNICE JOHNSON, Texas
ANDY BIGGS, Arizona
NEAL P. DUNN, Florida
CLAY HIGGINS, Louisiana
LAMAR S. SMITH, Texas
                           
                           C O N T E N T S

                           September 7, 2017

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Brian Babin, Chairman, Subcommittee 
  on Space, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................     4
    Written Statement............................................     6

Statement by Representative Ami Bera, Ranking Member, 
  Subcommittee on Space, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     8
    Written Statement............................................    10

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    12
    Written Statement............................................    13

                               Witnesses:

Mr. Jason Crusan, Director, Advanced Exploration Systems, NASA
    Oral Statement...............................................    14
    Written Statement............................................    17

Mr. Bob Richards, Founder and CEO, Moon Express, Inc.
    Oral Statement...............................................    23
    Written Statement............................................    25

Mr. John Thornton, Chief Executive Officer, Astrobotic 
  Technology, Inc.
    Oral Statement...............................................    35
    Written Statement............................................    37

Mr. Bretton Alexander, Director of Business Development and 
  Strategy, Blue Origin
    Oral Statement...............................................    46
    Written Statement............................................    48

Dr. George Sowers, Professor, Space Resources, Colorado School of 
  Mines
    Oral Statement...............................................    53
    Written Statement............................................    55

Discussion.......................................................    63

             Appendix I: Answers to Post-Hearing Questions

Mr. Jason Crusan, Director, Advanced Exploration Systems, NASA...    80

Mr. Bob Richards, Founder and CEO, Moon Express, Inc.............    87

Mr. John Thornton, Chief Executive Officer, Astrobotic 
  Technology, Inc................................................    92

 
                    PRIVATE SECTOR LUNAR EXPLORATION

                              ----------                              


                      Thursday, September 7, 2017

                  House of Representatives,
                              Subcommittee on Space
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Brian 
Babin [Chairman of the Subcommittee] presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Babin. The Subcommittee on Space will now come to 
order.
    Without objection, the Chair is authorized to declare 
recesses of the Subcommittee at any time.
    Welcome to today's hearing titled ``Private Sector Lunar 
Exploration.'' I recognize myself for five minutes for an 
opening statement.
    Exploration, particularly space exploration, is inherently 
and inescapably a matter of vital national strategic 
importance, both today and in years and decades to come. 
Because space exploration is so strongly linked to a wide range 
of current and future national interests, it is easy for us, as 
lawmakers, to fall into the habit of thinking of space as a 
strictly government operation and effort.
    But not only can space involve the private sector, it must 
involve the private sector. Fully incorporating newly explored 
domains into our sphere of economic influence will ensure U.S. 
leadership in the future. Moreover, space is so vast and 
immense that it is foolish to propose that we can meaningfully 
plumb its depths without resources, talent, and drive that are 
so abundant in America's private sector.
    There's no guarantee that the private sector will be 
successful. To the contrary, there will certainly be failures 
but the failures and successes should be determined by the free 
market. For this same reason, the private sector should not be 
artificially subsidized by the government. We should not leave 
our nation's space exploration future purely to the whims of 
market uncertainties, and we should not bet our nation's future 
in space on any one company. As we've seen so often in space, 
companies, and even entire sectors, come and they go. Our 
leadership in space is far too important to subject it to that 
kind of risk and uncertainty.
    So while we will begin our discussion here today with 
NASA's testimony to provide context and help frame our 
deliberations, our intent is to understand not just how 
government-led exploration of space is proceeding, but where 
the private sector will take us and how these public and 
private actors will work together for their mutual benefit.
    This hearing gives us an opportunity to understand what has 
worked well in the past, as well as what we could do better in 
the future. NASA has a vast array of tools at its disposal: 
traditional contracts, grants, cooperative research and 
development agreements, various funded and unfunded Space Act 
Agreements, and anchor tenancy agreements. All of these tools 
offer unique advantages and risks. Careful consideration should 
be given to which tool is used in order to ensure that the 
taxpayer is protected, and that the government does not corrupt 
the market. Ultimately, I hope that we can better understand 
if, how, and when the Moon can be integrated into human 
economic activity.
    The Moon is the closest source of raw materials to Earth. 
In particular, the lunar poles may contain vast quantities of 
water, an invaluable resource for space exploration. Water is 
not only necessary to support the life of astronauts and crew; 
it can also be broken down into hydrogen and oxygen, which are 
excellent propellants.
    Industrial, financial, and technical giants like Carnegie, 
Rockefeller, JP Morgan, and Edison dominated the economic and 
industrial landscape of the late 19th century America. Advances 
in information technology in the late 20th century brought us 
Microsoft, Google, Apple, Facebook, and Amazon.
    Will space be the next sector to lead economic growth? I 
don't know. If space becomes a home and workplace for humanity, 
if space can become part of our sphere of economic influence, 
then someday, perhaps in the far future, we will see those 
industries take root and grow.
    But we cannot compel such an ambitious outcome, but by 
careful and thoughtful consideration we can, hopefully and 
humbly, enable it. At the very least we should not stifle it. I 
hope that today's discussion will help inform all of our 
thinking about the future of private sector exploration of 
space.
    [The prepared statement of Chairman Babin follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Babin. And now at I'd like to turn to the 
gentlelady from--the gentleman from California, Dr. Bera.
    Mr. Bera. Thank you, Mr. Chairman. And actually before I 
begin, I want to express my full support and sympathies to both 
you, your constituents in your district, and the employees at 
the NASA Johnson Space Center, and all those that were affected 
by Hurricane Harvey as well as those being affected by 
Hurricane Irma. Our thoughts and prayers go out to them, and 
they have our full support and you have our full support 
through the long recovery.
    Chairman Babin. Thank you.
    Mr. Bera. It also does emphasize the important work of this 
Subcommittee as well as the Full Committee in better 
understanding Earth sciences, better understanding weather 
changes, and making sure that we do have the best forecasting 
equipment and satellites that are out there.
    With that, I want to welcome the distinguished panel today, 
and thank you for calling this important hearing on lunar 
exploration plans and proposals.
    Forty-eight years ago, Neil Armstrong and Buzz Aldrin 
touched down on the Moon, imprinting mankind's first footsteps 
on the Moon's surface. When astronauts Eugene Cernan and 
Harrison Schmitt lifted off the lunar surface on December 14, 
1972, who would have imagined that they would be the last 
humans to visit the Moon for nearly a half-century and 
counting?
    Now, we don't know exactly when humans will return to the 
lunar surface, but what is clear is that we're at the doorstep 
of a renaissance in Moon exploration. Soon, the Moon may 
entertain many visitors in the form of robotic spacecraft and 
rovers from many countries, and some, as we will hear today, 
will be owned and operated by commercial entities. Innovative 
technologies that will enable testing and demonstrations may 
one day lead to routine cargo and perhaps even routine human 
flights to and from the Moon and help promote increased 
economic activity in space. However, let's also not forget that 
the Moon remains an important scientific research center and 
the importance of finding that public-private nexus.
    A 2007 National Academies report identified several 
scientific priorities for Moon exploration including the 
exploration of the lunar poles. According to the report, the 
South Pole Aitken Basin, in particular, is a priority for 
further scientific exploration because ``it is the oldest and 
deepest observed impact structure on the Moon and the largest 
in the Solar System.'' And, you know, that exploration, as the 
Chairman touched on, you know, if in fact we confirm the 
presence of lunar ice there, can have huge impact, and 
certainly as we think about the Moon as a potential secondary 
launch site as we go and further explore into deep space, it's 
incredible important. But also as we look at this pristine 
laboratory, we want to make sure that, you know, we are 
balancing the research needs--if I think about Star Trek and 
the prime directive--and that we are not actually introducing 
other organisms or anything else, that may actually disrupt our 
science.
    So, I look forward to hearing about the commercial 
entities, the potential of that nexus of the commercial sector, 
the scientific community, NASA all working together, and I 
think this is an incredibly important time for both lunar 
exploration but also for deep space exploration, and the 
importance of this Committee at this particular time I think is 
incredibly important.
    A few questions that I hope to hear being addressed in 
today's hearing are, what are the market drivers for commercial 
efforts to explore the Moon? Who are the projected customers 
for planned private lunar exploration services and what 
services will be provided to those customers? How is NASA 
currently collaborating with the private sector on exploration 
of the Moon and are the current models of partnership working 
well? And are there opportunities for the private sector to 
collaborate with the science community on their exploration 
plans?
    I'm looking forward to hearing, and I think it'll be very 
interesting.
    With that, Mr. Chairman, I will yield back
    [The prepared statement of Mr. Bera follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Babin. Thank you.
    And now I would like to recognize the Ranking Member of the 
Full Committee for a statement, Ms. Johnson.
    Ms. Johnson. Thank you very much, Mr. Chairman. Good 
morning, and welcome to our witnesses. This hearing on private 
sector lunar exploration, I think is important.
    While not a substitute for our governmental space programs, 
there are many innovative ideas for potential non-governmental 
roles in space emerging. Private sector innovation can capture 
the spirit of opportunity and engage and inspire the 
development of scientific and technical talent. It has the 
capacity to support commercial interests as well as 
governmental space activities, where appropriate.
    This morning, we will hear about one example of potential 
commercial space activities--private sector lunar exploration. 
To date, only governmental entities have explored the Moon, but 
the private sector is getting interested in the Moon too.
    It's no surprise that the Moon and its vicinity are of 
interest to a growing number of private sector entities and 
other nations. The Moon provides a potential testing ground for 
human exploration systems, operations, and activities. It 
harbors resources that could potentially be used to support 
lunar surface operations or exploration beyond the Moon, and 
some would argue that it even offers a destination for 
potential space tourists. I look forward to hearing from our 
witnesses about their plans for private sector lunar 
activities, NASA's current role in those efforts, and about 
both the opportunities and challenges that lie ahead for the 
private sector in carrying out their plans.
    In addition, while not the focus of this hearing, it is 
important to note that the Moon has long been a body of 
scientific study, through U.S.-led and international lunar 
science missions, including from samples collected and returned 
on the Apollo missions. To that end Mr. Chairman, as we discuss 
private sector plans for lunar exploration, it is important 
that we understand the potential impacts of such activities on 
scientific priorities related to the Moon.
    Before I close, I want to extend my thoughts and prayers to 
those in Houston and the surrounding areas and, especially, Mr. 
Chairman, to you for being a stalwart in an area that was 
devastated with the storm. I want to include the NASA 
employees, contractors, and partners of the Johnson Space 
Center. Their steadfast commitment to ensuring the safety of 
the ISS crew and continuation of the James Webb testing during 
Harvey's devastating rains exemplifies the professionalism and 
commitment they give our country's space program every day, 
even during times of extreme duress.
    I thank you, and I yield back.
    [The prepared statement of Ms. Johnson follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Babin. And we sure thank you for your comments 
there.
    Now let me introduce our witnesses. Our first witness today 
is Mr. Jason Crusan, Director of Advanced Exploration Systems 
at NASA. He holds bachelor's degrees in electrical engineering 
and physics, a master's degree in computer information systems, 
and is currently a candidate for a doctorate in engineering 
management at George Washington University. Thank you for being 
here today.
    Our second witness today is Mr. Bob Richards, Founder and 
CEO of Moon Express. He also chairs the Space Commerce 
Committee of the Commercial Spaceflight Federation and serves 
on the Board of the Space Foundation. Mr. Richards studied 
aerospace and industrial engineering at Ryerson University, 
physics and astronomy at the University of Toronto, and space 
science at Cornell University. Thank you for being here.
    Our third witness today is Mr. John Thornton, CEO of 
Astrobotic Technology. Mr. Thornton led development of 
Astrobotic spacecraft including Red Rover, Polaris, and the 
Artemis lander, and the Griffin lander. He holds both a 
bachelor's of science and a master's of science degree in 
mechanical engineering from Carnegie Mellon University. Thank 
you for being here.
    And then our fourth witness today is Mr. Bretton Alexander, 
Director of Business Development and Strategy at Blue Origin. 
He has served as a Senior Policy Analyst for Space Issues in 
the White House Office of Science and Technology Policy under 
both Presidents Bush and Clinton as well as President of the 
Commercial Spaceflight Federation. Mr. Alexander holds both a 
master's degree and a bachelor's of science degree in aerospace 
engineering from the University of Virginia. Good to see you 
this morning, too.
    Our fifth witness today is Dr. George Sowers, Professor of 
Space Resources at Colorado School of Mines.
    Mr. Perlmutter. Colorado. You heard that.
    Chairman Babin. Thank you, Ed, appreciate that. I think 
they heard that, though.
    Dr. Sowers has also worked for Martin Marietta, Lockheed 
Martin, and the United Launch Alliance. Dr. Sowers holds a 
bachelor's of science in physics from Georgia Tech as well as a 
Ph.D. in physics from the University of Colorado. He is also a 
Fellow of the American Institute of Aeronautics and 
Astronautics.
    So I now recognize Mr. Crusan for five minutes to present 
his testimony.

            TESTIMONY OF MR. JASON CRUSAN, DIRECTOR,

               ADVANCED EXPLORATION SYSTEMS, NASA

    Mr. Crusan. Mr. Chairman and Members of the Subcommittee, 
thank you for the opportunity to appear today to discuss NASA's 
support of private sector exploration of the Moon.
    NASA is working to foster commercial use of space and 
engagement with the broader domestic and international space 
community. This effort will build on the progress NASA 
commercial partnerships have been using to develop spacecraft 
and rockets capable of delivering cargo and soon astronauts to 
low-Earth orbit.
    Its capabilities could also enable new science and 
exploration missions of interest to the larger scientific and 
academic communities and can fit well with concepts being 
discussed for human missions in cislunar space. In turn, they 
have the potential to provide important enabling competencies 
as NASA expands human presence into deep space.
    NASA lunar science has helped map the Moon in incredible 
detail, determine the presence of water ice, and understand the 
Earth's satellite's irregular gravity field. NASA lunar 
missions are increasing global knowledge and understanding of 
the origins of our solar system, informing future exploration 
efforts of the Moon and other planetary bodies, and bringing 
the agency closer to having infrastructure and technologies 
needed to explore future destinations like Mars.
    As part of the agency's overall strategy to conduct deep 
space exploration, NASA has been supporting the development of 
commercial lunar exploration. In 2014, NASA introduced an 
initiative called Lunar CATALYST, and the purpose of this 
initiative was to enable development of U.S. private sector 
robotic lunar landers that can deliver payloads to the lunar 
surface using U.S. commercial launch capabilities. Through 
CATALYST, NASA has provided partners with in-kind contributions 
including technical expertise, access to test facilities, 
software and loaning of equipment, and the initial flights of 
these commercial lunar landers may begin as early as 2018.
    As a result, one or more of our partners would be able to 
market lunar payload delivery services for small instruments 
and technology demonstrations. Future commercial lunar 
transportation capabilities could also support science and 
exploration objectives such as sample return, geophysical 
network deployment, resource utilization, and technology 
advancements.
    The agency is currently assessing possible robotic mission 
concepts, acquisition approaches, and associated payloads for a 
potential series of lunar cargo missions to the surface of the 
Moon starting as early as 2018.
    In support of these objectives, NASA issued a Request for 
Information seeking ideas from industry for NASA participation 
in existing or future commercial missions to the Moon. The 
agency is interested in assessing the availability of 
commercial delivery services from Earth to the lunar surface as 
early as next fiscal year.
    NASA continues to pursue other lunar exploration efforts as 
well. NASA's Lunar Reconnaissance Orbiter, or LRO, has produced 
the highest quality global topographic map of any planetary 
body and continues to share its data openly with the public. 
The Korea Pathfinder Lunar Orbiter mission, South Korea's first 
mission in exploration, will include NASA's ShadowCam, a highly 
sensitive optical camera that will peer into the regions that 
may hold volatiles, including water. NASA plans to include four 
Lunar Research CubeSats as part of the 13 CubeSats that are 
launching on Exploration Mission 1, the first launch of the 
Space Launch System. And lastly, NASA has been studying a 
potential Resource Prospector surface mission that would take 
the next step in understanding in the harvesting of resources 
and regolith, specifically volatiles, particularly in the lunar 
polar regions.
    So NASA is committed to expanding partnerships with the 
U.S. government agencies as well as academic, industrial and 
entrepreneurial and international communities. NASA's 
collaborative efforts for fostering innovation in a growing 
space industry are continuing to transform capabilities and 
accelerate technologies to achieve national strategic goals.
    Mr. Chairman, I'd be happy to respond to any questions you 
or the other Members of the Subcommittee have. Thank you.
    [The prepared statement of Mr. Crusan follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Babin. Thank you very much, Mr. Crusan.
    I now recognize Mr. Richards for five minutes to present 
his testimony.

                 TESTIMONY OF MR. BOB RICHARDS,

              FOUNDER AND CEO, MOON EXPRESS, INC.

    Mr. Richards. Thank you, Chairman Babin, Ranking Member 
Bera and Members of the Subcommittee. It is an honor to be 
invited to speak with you today about the efforts of U.S. 
commercial space industry in pioneering new business models for 
lunar exploration and development.
    Only a few decades ago, Earth orbit was an economic 
frontier and the singular domain of government space agencies 
today. The private sector satellites generated billions of 
dollars of commerce annually in a mature, well-established 
economic sphere that impacts our everyday lives and has 
immeasurably improved life on Earth.
    Now commerce looks beyond Earth orbit to a lunar frontier, 
which has also been the realm of governments but over the last 
decade, a combination of exponential technology and private 
sector investment has brought the Moon within reach of the 
commercial sector.
    Today, I address you as Founder and CEO of Moon Express, a 
privately funded commercial space company created to seek and 
unlock the resources of the Moon through a progressive series 
of commercial robotic missions starting with our maiden voyage 
scheduled to launch next year.
    I founded Moon Express with dotcom pioneers Naveen Jain and 
Barney Pell in 2010 as an enduring business, which starts with 
the creation of new space technologies and low-cost missions 
designed to capture and generate new markets for robotic lunar 
exploration. We are a Silicon Valley-born and -backed 
enterprise with investors ranging from billionaires to venture 
funds to celebrities. We began our life at the NASA Ames 
Research Park in Mountain View, California, and in 2015 we 
relocated the company to Cape Canaveral on Florida's Space 
Coast where we have licensed the historic Launch Complexes 17 
and 18 from the U.S. Air Force and are currently refurbishing 
these facilities for our spacecraft, engineering tests, and our 
mission control.
    Our vision is to open up the lunar frontier for everyone 
with turnkey payload data and mission surfaces to the Moon for 
a wide range of customers globally including governments, NGOs, 
commercial enterprises, universities, and consumers.
    To do so, we have developed a flexible, scalable robotic 
explorer system that can reach the Moon and other destinations 
in the solar system from Earth orbit. After years of quiet 
development, we unveiled our robotic exploration architecture 
on July 12th just down the hall from this hearing room ranging 
from our MX-1E scout-class micro lander to our frontier-class 
MX-9 supporting lunar sample return. We have contracted for up 
to five launches from Rocket Lab USA aboard their electron 
rocket, which achieved a remarkable level of success during its 
maiden flight last May, and we expect to become operational 
later this year. Our first lunar scout mission in 2018 will 
utilize the electron together with our MX-1E explorer to 
deliver a diverse manifest of scientific and commercial 
payloads to the lunar surface. This will be followed by 
expanded capabilities and ongoing missions. Our manifest is 
fully booked for our maiden mission, and we will be offering 
payload accommodations on our future ongoing missions planned 
at the rate of about one per year, but we are also prepared to 
scale up our systems and increase our flight rate to meet 
rising market demand and opportunity.
    We have a big vision but it wouldn't be possible without 
the help we received from NASA. Moon Express has been honored 
to be partnered with NASA since the inception of our company 
through reimbursable Space Act agreements with both NASA Ames 
and Marshall Spaceflight Center. We were able to invest in and 
make use of NASA lunar lander test vehicles that allowed us to 
advance our own spacecraft control software. In 2014, we were 
selected as one of three industry partners with NASA for the 
Lunar CATALYST program established to spur commercial cargo 
transportation capabilities to the surface of the Moon. 
Supported by Lunar CATALYST and the Kennedy Space Center, we 
conducted test flights of our own lunar lander test vehicle at 
the shuttle landing facility, beginning a long-term 
collaboration with KFC, and that continues today. Thanks to our 
partnership with NASA, we're well on our way to building our 
maiden launch mission next year, which is in various stages of 
fabrication, assembly and test.
    In the big picture, it's been 45 years since the United 
States left the surface of the Moon to the legacy of Apollo and 
a generation past. Moon Express is working to reopen the 
American frontier and the Moon and redefine what is possible 
for new generations.
    The American flag is returning to the surface of the Moon 
next year, not because of a government program but because of 
private sector investments into low-cost rockets and smart 
robotic explorers that are collapsing the cost of lunar access. 
Together, we will begin a new democratized program to make the 
Moon accessible to entrepreneurs.
    We are at the cusp of a glorious adventure. We aspire to 
the stars. Mars beckons as a second home for humanity, and the 
Moon is our gateway.
    Thank you for the time and the opportunity to present this 
testimony.
    [The prepared statement of Mr. Richards follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Babin. Thank you, Mr. Richards.
    I now recognize Mr. Thornton for five minutes to present 
your testimony.

                TESTIMONY OF MR. JOHN THORNTON,

                    CHIEF EXECUTIVE OFFICER,

                  ASTROBOTIC TECHNOLOGY, INC.

    Mr. Thornton. Chairman Babin, Ranking Member Bera, and 
Members of the Subcommittee, thank you for the opportunity to 
discuss our nation's future on the Moon.
    Incredibly, America has not returned to the lunar surface 
since the Apollo program ended in 1972. This has put our nation 
at a disadvantage as other nations like China have landed 
increasingly ambitious robotic missions on the surface of the 
Moon.
    As we approach the 50th anniversary of Apollo 11 landing, 
our nation has a unique opportunity to answer a growing global 
demand for a reliable, proven means to access the lunar 
surface. Some nations are beginning to fly with the Chinese but 
it's not too late. By supporting our nation's entrepreneurs, 
America can once again lead the world back to the Moon.
    Thankfully, with the strong technical support of NASA, 
especially through the leadership of Jason Crusan's AES Office, 
American industry is restoring access to the Moon with small 
robotic lunar landers.
    Founded in the Rust Belt city of Pittsburgh in 2007, 
Astrobotic is leading the way to reestablish American access to 
the Moon with small-scale cargo delivery. We have assembled a 
world-class team of partners including NASA, United Launch 
Alliance, Airbus, and DHL. Together, we are building the 
Peregrine lunar lander, a privately developed spacecraft 
capable of delivering up to 265 kilograms of cargo to the Moon. 
In August, I celebrated ten years of building Astrobotic and 
the lunar market. Today, I am proud to say that Astrobotic is 
leading the world in lunar sales and market development with 11 
deals representing six nations and a lunar pipeline of over 115 
deals worth more than $1.8 billion. Astrobotic is flying its 
first mission to the Moon in 2019, the 50th anniversary of the 
Apollo 11 landing.
    Peregrine is not a precursor or a demonstration. It is 
right-sized from the beginning to address the existing lunar 
market. At the historic price of $1.2 million per kilogram, 
Peregrine enables activities like resource development, 
scientific investigation, technology demonstration, and 
exploration.
    The future is bright but tenuous for sustainable commercial 
lunar cargo delivery. The government would be wise to leverage 
and augment existing international lunar payload demand rather 
than overwhelm it with an oversupply of large landers that have 
no sustaining commercial demand for the foreseeable future.
    Small landers like Peregrine stand ready to support 
upcoming NASA crewed exploration missions on SLS Orion to the 
deep space gateway by enabling telerobotic access to the 
surface. Small lander missions are our first step toward one 
day reestablishing human presence on the Moon and launching a 
cislunar off-world economy.
    Much of Astrobotic's market progress is owed to a proven 
technical track record and world-class partnerships. For 
instance, Airbus is providing engineering support and expertise 
from ESA programs. Throughout partnership with United Launch 
Alliance, we will launch as a secondary payload from Cape 
Canaveral on America's reliable Atlas V launch vehicle, 
continuing a proud history of successful lunar missions 
including LRO, LCROSS and GRAIL.
    NASA is providing access to their engineers and facilities 
through the highly successful Lunar CATALYST program, and we 
are encouraged by steps NASA has taken this year including 
issuing RFIs for small lunar payloads and lander services. With 
CATALYST insight into our service, Astrobotic believes now is 
the time for NASA to join our payload manifest.
    We appreciate the leadership of House CJS Appropriations 
Subcommittee Chairman Culberson, Ranking Member Serrano, and 
Members of the Committee in providing $30 million in the fiscal 
year 2018 appropriations bill for a small robotic lunar lander 
demonstration mission. We are hopeful the Senate will follow 
the House's lead, and this funding will be included in a final 
omnibus, which could allow NASA to send payloads to the Moon. 
We encourage this Committee to lend its full support for this 
program in the appropriations process this fall.
    As this Committee plans for the next NASA authorization, we 
urge you to authorize a frontier-class lander services program 
for small lunar landers within the launch services program 
similar to the Venture-class program. This would provide a 
contractual mechanism for NASA to easily purchase lunar payload 
services.
    Mr. Chairman, we are proud to be leading the Moon shot from 
America's Rust Belt. This is a special moment for our company, 
our industry, our region, and our nation. Small lander services 
like Astrobotic have a proven market with sales, world-class 
partners, and credible spacecraft. With support from Congress, 
we can ensure American lunar market leadership and NASA's 
return to the Moon.
    I look forward to any questions you may have.
    [The prepared statement of Mr. Thornton follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Babin. Thank you very much, Mr. Thornton.
    I now recognize Mr. Alexander for five minutes to present 
his testimony.

              TESTIMONY OF MR. BRETTON ALEXANDER,

   DIRECTOR OF BUSINESS DEVELOPMENT AND STRATEGY, BLUE ORIGIN

    Mr. Alexander. Chairman Babin, Ranking Member Bera, and 
Members of the Subcommittee, thank you for the opportunity to 
speak before you today about private sector lunar exploration, 
a topic that we're very excited about at Blue Origin.
    Before I begin, I'd like to extend our thoughts and support 
to our friends at Johnson Space Center and the broader Texas 
community as they recover from Hurricane Harvey and to those at 
Kennedy and throughout Florida in the path of Hurricane Irma.
    Blue Origin was founded to bring about a future where 
millions of people are living and working in space. We are 
committed to building the next generation of space 
transportation and are prepared to bring significant private 
capital to partner with NASA for return to the lunar surface.
    It's time for America to return to the Moon, this time to 
stay. Enabling NASA and U.S. commercial activities on the Moon 
is a key step on the path to long-term exploration of the solar 
system.
    Imagine driving from DC. to Los Angeles nonstop. You'd have 
to carry with you all of your fuel, food, and other necessities 
with you, which would make for a difficult trip. The Moon 
provides the resources and proximity to enable human 
exploration of deep space destinations like Mars, making it the 
ideal proving ground and first step.
    For example, the lunar South Pole's Shackleton Crater 
contains critical resources for fuel and power generation while 
also offering a nearby proving ground for deep space 
exploration technologies.
    All of this potential has not gone unnoticed. Many 
commercial entities and nations have plans for an ambitious 
decade of lunar exploration. The United States should be the 
leader in this worthy endeavor.
    Blue Moon is a space transportation and lunar lander system 
that can cost-effectively deliver more than 10,000 pounds of 
cargo from Earth to the lunar surface. This equates to about 
five Mars Curiosity Rovers, or two Ford F-150 trucks. When you 
can cost-effectively and precisely soft land large amounts of 
cargo on the Moon, there are few limits on what you can do, 
everything from science rovers to resource discovery and 
utilization mission to surface habitats is made possible.
    Blue Moon is scalable, repeatable, and based on proven 
technologies. Optimized to fly on NASA's Space Launch System, 
Blue Moon also scales to fly on many different launch vehicles. 
Just pick the launch vehicle and go. Smaller payloads, such as 
NASA's Resource Prospector, can use an Atlas V rocket, while 
larger payloads can use Blue Origin's New Glenn launch vehicle 
or NASA's SLS.
    Blue Origin's proven technology provides a fast path to a 
U.S. lunar landing capability for medium to large payloads. 
Blue Origin's BE-3 is the first new liquid hydrogen-fueled 
rocket engine to be developed for production in over a decade. 
It has been proven during five launches and landings of our New 
Shepard vertical landing booster. The BE-3's efficiency, deep 
throttling and relight capabilities all translate into more 
useful payload mass landed on the Moon.
    Precision landing is also key, and Blue Origin has 
demonstrated this capability with the same New Shepard vehicle 
five times in less than a year. Both technologies reduce 
development time and risk.
    Blue Origin has made and continues to make significant 
investments in the foundational technologies needed for Blue 
Moon. As part of a public-private partnership with NASA, we are 
willing to invest further in developing this capability. We 
invite NASA to partner with Blue Origin using innovative 
contracting mechanisms that require private sector investment 
and cost-sharing. NASA's Commercial Cargo and NextSTEP programs 
represent successful models that require partners to bring 
money and technologies toward achieving shared goals. These 
partnerships allow the country to meet big objectives more 
rapidly, while also promoting economic development and U.S. 
strategic leadership in space.
    A NASA Reauthorization Act should include provisions that 
prioritize landing on the lunar surface in the near term. It 
should establish a regular cadence of cargo missions and 
include a strategy for the Moon as a stepping-stone for 
expanding human exploration in our solar system.
    We are on the verge of a new space age, one defined by 
multiple international competitors focused on getting to the 
lunar surface. This Congress has the opportunity to ensure 
America's continued leadership in space. The Moon should be the 
near-term focus of human spaceflight beyond LEO as a necessary 
step toward exploration of the solar system, and Blue Origin is 
willing to significantly invest in partnership with NASA to 
accelerate America's return to the Moon.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Alexander follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Babin. Thank you, Mr. Alexander. I appreciate 
that.
    I now recognize Dr. Sowers for five minutes to present his 
testimony.

           TESTIMONY OF DR. GEORGE SOWERS, PROFESSOR,

           SPACE RESOURCES, COLORADO SCHOOL OF MINES

    Dr. Sowers. Mr. Chairman and Members of the Committee, 
thank you for the opportunity to appear today to discuss 
private sector lunar exploration.
    The subject of today's hearing is of great interest to me. 
It's part of a larger topic, one that is truly revolutionary, 
that of bringing the resources of space into the economic 
sphere of humankind.
    There have been two major economic revolutions in human 
history: the Agricultural Revolution of 10,000 years ago, which 
gave birth to human civilization, and the Industrial Revolution 
of 300 years ago, which gave rise to the tremendous increase in 
human well-being and prosperity we enjoy today.
    Space resources will be the third major economic revolution 
and will usher in an era of unprecedented prosperity and 
flourishing. Furthermore, the development of space resources 
will enable us to save the Earth as we unchain human progress 
from the constraints of Earth's ever-diminishing resources.
    Compared to Earth, the resources available in space are 
virtually infinite. Consider the power output of the Sun is 10 
trillion times the power consumption of humans. Just one 
metallic asteroid 500 meters in diameter contains more 
platinum-group metals than have ever been mined.
    Finally, we now know that the solar system contains 
abundant quantities of water. If you have water, you have 
hydrogen and oxygen, which are the most efficient chemical 
propellants known. Water is the oil of space.
    We know these resources exist. Bringing them within the 
economic sphere of humankind requires the machinery of a robust 
space economy, and that means harnessing the power of the free 
market. Competition in the free market spurs innovation, 
leading to efficiency and growth. But the foundation of the 
free market is the consumer, the ordinary citizen, the 
taxpayer. The space economy must deliver value to consumers on 
Earth. Hence, the first place to begin is cislunar space.
    The goal then of private sector exploration of the Moon is 
economic development. Extraction and utilization of lunar 
resources will be cornerstone of that development. The Moon is 
rich in resources that will drive the cislunar economy but the 
resource that would be most valuable in the near term is water 
processed into propellant. It happens that water is abundant at 
the lunar poles, billions of metric tons per pole by some 
estimates. A year ago, while at United Launch Alliance, I 
became the first person to offer to buy propellant in space. I 
set up price for propellant bought either at the lunar surface 
at $500 a kilogram or in high-Earth orbit like the first Earth-
Moon Lagrange Point at $1,000 per kilogram. At these prices, 
the cost of any activity beyond low-Earth orbit becomes 
dramatically reduced. For example, the cost to deliver mass to 
the surface of the Moon will be reduced by a factor of three. 
The cost of a Mars mission will be similarly reduced. So you 
can see that the water on the Moon is an immensely valuable 
resources. Strategically, we should view the poles of the Moon 
as the next Persian Gulf.
    I've described the cislunar economy as a free market but 
the operation of a free market requires government to establish 
a framework of rights, enforce contracts, and to provide 
security. These things are part of the machinery of a robust 
space economy and are essential to reduce business uncertainty 
and enable private sector investment.
    Beyond the minimal, there's much the government can do to 
stimulate the creation of the cislunar economy. First is to 
invest in the basic science to characterize the resources and 
develop the technologies to exploit them. One approach would be 
for NASA to establish a space resources institute, partnering 
with both academia and industry, domestic and international, to 
solve some of the basic problems common to all.
    Second is to participate in the cislunar marketplace. I set 
a price for propellant based on purely commercial 
considerations, but having NASA as an additional customer 
purchasing propellant for, say, a Mars mission would 
significantly improve the business case and attract more 
competitors, driving more innovation and lowering costs even 
further. That's the virtuous circle of the free market.
    Finally, NASA could invest through public-private 
partnerships in, for example, lunar water mining operations. 
This approach has proven successful with Commercial Crew and 
Cargo, and works well when the risks are too great for the 
private sector to take on by itself.
    In conclusion, humankind is on the cusp of a third major 
economic revolution that promises to bring unprecedented 
prosperity and well-being for all. The first step is the 
creation of the cislunar economy with important roles for both 
the private sector and government.
    Thank you again for inviting me to testify, and I look 
forward to your questions.
    [The prepared statement of Dr. Sowers follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Babin. Thank you, Dr. Sowers.
    I'd like to thank all the witnesses for your testimony. The 
Chair now recognizes himself for five minutes for questions.
    Mr. Crusan, how could NASA leverage private sector 
technologies, products and services on future exploration 
concepts such as the potential deep space gateway or the 
hypothetical deep space transport? What elements are better 
suited to partnerships, and what aspects are more appropriate 
for a government-owned and operated effort?
    Mr. Crusan. Mr. Chairman, we've been analyzing those exact 
cases that you've been asking about. We have our Next STEP 
initiative related to the gateway activities and how we 
construct and actually build that critical infrastructure, and 
we're trying to find that proper balance between government 
objectives and commercial objectives, both in the creation of 
that fundamental infrastructure but also in the utilization of 
that infrastructure as well.
    Lunar CATALYST now with the potential to buy lunar landed 
services, are another extension of that instead of building 
technologies that are only for our own use here at NASA but 
building technologies that are fundamental to the industry 
demand that they need as well. So through CATALYST, we've been 
sharing the vast wealth of knowledge we have at NASA, sharing 
it with the U.S. industry openly to allow them to make the 
maximum best use of that. In every one of these endeavors, we 
have to tread carefully, though, to find that proper balance, 
and that's why we've been so deliberate about what we've been 
doing.
    Chairman Babin. Well, then that'll lead into the next thing 
I'd like to ask you about, the potential pitfalls of leveraging 
private sector investments in space. Are there any areas about 
which we should be cautious when it comes to partnerships for 
lunar exploration?
    Mr. Crusan. Yes, so in a couple areas of alignment of 
incentives. So expanding the marketplace is a function of 
commercial demand and government use as well, so trying to get 
a proper balance and making sure that the government isn't 
expecting a higher level of performance that isn't commercially 
sustainable in the marketplace and getting that balance 
correct. So buying services at a rate which the industry is 
going to utilize for non-NASA use as well is one of the strong 
pitfalls that I would advise.
    Chairman Babin. Okay. And then to Mr. Richards, Thornton 
and Alexander, I'm pleased to see such a diversity of lunar 
landing capabilities being developed by your three companies, 
and it shows how the United States continues to lead the world 
in developing innovation and affordable solutions. Can each of 
our industry witnesses briefly explain what makes their lander 
unique and different from the others and so the Committee can 
better understand the differences and the capabilities between 
your services? We'll go with you, Mr. Richards, first.
    Mr. Richards. Thank you, Mr. Chairman. So Moon Express's 
approach has been to establish a family of vehicles that begins 
small and can grow with partnership with NASA, not presuming a 
dependency, but looking at the long tail of the market where we 
can do for lunar access what CubeSats did for access to low-
Earth orbit. We believe there's a big market here. So we're 
starting with a micro lander that can go in a very low-cost 
launch vehicle. When we started Moon Express, we were looking 
at missions that might cost $100 million or more to get to the 
Moon. With a combination of the current technology and the low-
cost vehicles that are coming on the market, we can do initial 
precursor missions for under $10 million of our cost.
    But those can scale up, and our modularity is key. So like 
rockets and especially being the manufacturer take advantage of 
modular systems and stages don't get changed over time, our 
basic propulsion model scales up into larger and larger lander 
systems that can reach the Moon and deliver materials back.
    Chairman Babin. Thank you. Mr. Thornton?
    Mr. Thornton. Thank you. So we are developing the Peregrine 
lunar lander. From the get-go, we are market-focused, so we say 
okay, what's the market out there for payloads, what sizes is 
necessary, and then we design a lander and the scale that's 
appropriate for that. So what we have determined is 265 
kilograms of capacity serves the majority of the existing 
market for payload delivery. Our first mission to the Moon 
flies that commercially viable craft right from the get-go. 
It's a single-set secondary vehicle that flies on a United 
Launch Alliance launch vehicle to low-Earth orbit and then we 
fly the rest of the way to the Moon. Once on the surface of the 
Moon, we become the local utility so we provide power, we 
provide communications for payloads that come with us. Some 
payloads can stay attached to the lander. Some payloads can 
deploy and drive across the surface and use our WiFi on the 
surface to talk back to Earth. So the lander itself is designed 
to be a simple, robust system. It's single stage. There's no 
separations, very few mechanisms to actually move on the 
spacecraft, so we're all about simple reliability for robust 
delivery, and what we have found from our customers is that 
customers are very sensitive to any changes, substantial 
changes in spacecraft. The customers around the world tell us 
that if you change your spacecraft configuration mission to 
mission that they're going to think of that next launch as a 
demonstration launch and they want to make sure that it's a 
proven capability. So that's why we have a single spacecraft 
designed from the get-go to address the commercial market, and 
we believe that it's affordable enough to get that first flight 
demonstrated and to capture a large portion of the 
international market.
    Chairman Babin. Thank you.
    Now we'll go to Mr. Alexander.
    Mr. Alexander. Thank you, Mr. Chairman. Blue Moon is 
designed as a large lander so it is designed to take more than 
10,000 pounds to the lunar surface when launched on an SLS, a 
NASA SLS rocket. So that vehicle, that same spacecraft lunar 
lander can be flown on a variety of different launch vehicles 
ranging from 1,000 pounds of payload delivered to the surface 
all the way up to more than 10,000 pounds. So a single design 
does the in-space transfer as well as the landing down to the 
surface and carries with it that large payload capability. So 
it is designed to enable other missions. It's designed to 
enable NASA to preposition logistics for future human missions, 
to provide resource utilization missions, delivery and access 
to the surface, or to provide landers like Resource Prospector, 
a way of actually getting to the surface. It's repeatable, 
scalable, and based on proven technologies.
    Chairman Babin. Okay. Thank you very much. I appreciate the 
witnesses.
    Now I'd like to recognize the Ranking Member from 
California, Mr. Bera.
    Mr. Bera. Thank you, Mr. Chairman.
    So if I think about when I was a kid, probably six or seven 
years ago, and thinking about what I thought was the coolest 
Apollo mission when they sent up the lunar rover, the Moon 
buggy, and you think about how space was done then. It was NASA 
doing the launch vehicle, NASA doing the landing vehicle, in 
some ways NASA then doing the research vehicle, the Moon buggy. 
I want to make sure I'm thinking about this correctly. Let's--
and maybe this is a question for Mr. Crusan. Let's say NASA is 
thinking about something like the Moon buggy or a research 
vehicle. They can now in this new world of space travel say 
okay, let's do some competitive bidding, see if Moon Express is 
the right landing vehicle or, you know, Astrobotic or Blue Moon 
is the landing vehicle we want to use. They can also then say 
okay, what launch vehicle do we want to use? Do we want to do 
an Aerojet Rocketdyne rocket or a Blue Origin rocket or a 
SpaceX rocket, or ULA rocket? And so we're creating this 
competitive marketplace where NASA in some ways could be the 
customer. Am I thinking about that correctly?
    Mr. Crusan. Absolutely. So the Apollo reference is an 
interesting one in that during the development of Apollo and 
many times we were the entire--we were the user of the entire 
industrial base, and in fact, a lot of the industrial base 
didn't even exist at the time, and you think about that 
difference in that we had to pay the entire percentage of all 
the non-reoccurring costs in order to get a capability into an 
existence, and we were the only user of that at the end of the 
day so we also had to sustain it. What you now see are merging 
space economy activities, both launch vehicles and 
communication satellites and Earth observation work that's 
going on now where now we can be a leveraged buyer of those 
capabilities, especially in low-Earth orbit and geosynchronous-
type environments that we have, and then we can then stretch 
those commercial capabilities to start applying towards 
exploration initiatives, and it comes down that there's--we 
have a mixed environment of traditional development with the 
high-risk, high-reliability needs that we have, and with 
commercial services and commercial technologies that we can 
apply into that environment that we need to execute the 
national mission. So at the same time, then we don't have to 
sustain the entire industrial base anymore either, and there's 
a very productive space sector that's growing.
    Mr. Bera. And to the folks in the commercial sector, maybe 
Mr. Richards, Mr. Thornton, Mr. Alexander, are we looking at 
this--we're creating a competitive economy here where it could 
be NASA as a customer but it could also be academia or others 
as a customer. Is that how you're looking at your business 
model?
    Mr. Richards. For Moon Express--thank you--we certainly 
are. We love the idea of NASA as a customer. They've certainly 
been a great technology partner. We're building on the 
shoulders of giants and working shoulder to shoulder with 
giants, so that's great, but we're looking at a global 
marketplace, and bringing the cost accessible to where 
university endorsements, I mean, we've got kids sending 
CubeSats into low-Earth orbit. We see the long tail of the 
market a great leverage for us to begin our lunar business and 
be able to scale up on the way, and I'm sure my friends will 
agree with me that competitiveness rocks, and we're very much 
in favor of it.
    Mr. Bera. Same thing--same thoughts for Mr. Thornton and 
Mr. Alexander?
    Mr. Thornton. Yes, I'd agree with the sentiments. We think 
of the market for lunar services as global. We've identified 
115 payloads worldwide that want to fly to the surface of the 
Moon, and that's a mix of government, international 
governments, domestic, small and big. We think of the smaller 
space agencies as the non-vertical space agencies. They need a 
little help because they don't have their own spacecraft, they 
don't have their own launch vehicles. We can enable that. One 
of our customers is the Mexican space agency, a perfect example 
how we are enabling their access to the surface of the Moon, 
and then we also see a mix of commercial interests as well.
    Mr. Bera. And same thing with Blue Origin?
    Mr. Alexander. Yeah, absolutely. I think there's a large 
market out there of international, government and commercial 
activities, but I do also think that NASA should be leading 
this effort. The United States should be leading the world in 
returning to the Moon in terms of utilizing the Moon's 
resources and so there's a large role for NASA to play in that.
    Mr. Bera. Great. Excellent.
    Dr. Sowers, in your opening testimony you raised some 
interesting questions. Obviously there's a value of that water 
on the Moon and that ice on the Moon, and I think, you know, it 
raises questions. Is this going to be the Wild West? Whoever 
gets to that water first, do they own that water? I mean, we're 
talking about another planetary body. So, who owns that water? 
What country can claim that water, or is it our entire planet 
Earth? And then I would imagine there's some urgency that this 
body ought to be thinking about those questions. You know, 
certainly how do you create the framework that addresses and 
creates some certainty for folks that are going to go out there 
and explore, creates that market but then also doesn't stifle 
innovation. And I'd just be curious as you're thinking through 
those questions, what things we ought to be thinking about as a 
body.
    Dr. Sowers. That's a very important question. You know, I 
view the space economy as a free market but the free market has 
to have constraints and controls. There also has to be a system 
of rights. So you raise the question, who owns it. You know, 
there needs to be the establishment of a framework of, if you 
will, property rights for space so that if a company invests 
in, you know, developing a resources that they can return--reap 
a return on that investment. You know, those are important. 
Enforcement of contracts, you know, how do we make sure that, 
you know, if some company buys something from a country, you 
know, that those contracts can be enforced. Then you have also 
the issue of physical security. You know, if there's wealth in 
space, eventually there's going to be pirates in space, and so 
kind of have to have a way of ensuring the security of the 
enterprises that take place out there.
    Mr. Bera. Great. Thank you.
    Mr. Chairman, it looks like we might have some work ahead 
of us.
    Chairman Babin. Absolutely. We'll have another Texas oil 
boom out there but it'll be water this time. Thank you very 
much.
    I now recognize the gentleman from Florida, Mr. Posey, who 
is trying to get out of here to get his district ready.
    Mr. Posey. Thank you very much, Mr. Chairman.
    Chairman Babin. Yes, sir.
    Mr. Posey. Mr. Richards, Thornton and Alexander, you 
mentioned that you got help and encouragement from NASA. I 
wonder in 30 seconds or less each if you can briefly tell me 
what kind of assistance you got from NASA.
    Mr. Richards. We've been partnering with NASA since the 
beginning with technology development so we've been given 
access. Sometimes we--most of the time we have to pay for that 
access but more recently with Lunar CATALYST, based on a mutual 
exchange, access to technology, test facilities, expertise, 
software, things that have displaced otherwise capital costs 
that we would've had to use investment money for.
    Mr. Posey. Okay. Thank you.
    Mr. Thornton. NASA has been a great partner of Astrobotic 
for a very long time. Most notably, the CATALYST program has 
been fantastic for us. It's taking NASA's best spacecraft 
engineers and landing engineers and fusing together with our 
technology to create a great vehicle. We just had our 
preliminary design review. We had 20 NASA people in the room 
including another dozen people on the phone looking over our 
whole system and helping us out. It's a first time for us so 
it's great to have the best in the business part of the 
mission.
    Mr. Posey. Thank you.
    Mr. Alexander. Blue Origin does not currently have a 
partnership with NASA on lunar lander activities. However, we 
do have a long history of cooperating with NASA on propulsion 
and other technologies. We've worked very well with NASA, and 
we appreciate their technical expertise and look forward to a 
partnership with NASA on the Blue Moon lunar lander.
    Mr. Posey. Okay. Mr. Crusan, I appreciate that NASA is 
trying to privatize what it can here and keep a long-term, I 
hope, focus on Mars. We've kind of helped incubate, move along, 
assist and encourage these companies. Have we made any 
agreements with them yet? I mean, how are we going to utilize 
them?
    Mr. Crusan. Yes. To date, we've done a no-exchange-of-funds 
Space Act Agreement where we haven't exchanged any funds for 
that but just providing, as we said, the support services that 
you heard from the partners here, and what we are now looking 
at doing is actually buying landed delivery services in the 
next fiscal year here of actually buying the first ability to 
land small payloads, and that's in our plans and our budget 
submit that we did this year.
    Mr. Posey. Okay. And tell me a little bit more about those.
    Mr. Crusan. Yeah, so we're talking initially about small 
landed services so small payloads of everything from scientific 
context to instruments to do single-point measurement related 
to volatiles to small technology demonstrations. This is a sign 
of our confidence of--growing confidence in the commercial 
industry, and managing a risk without getting too large or too 
costly payloads for us on the first maiden flights. So it's 
that balanced risk approach of us giving confidence in them but 
also not risking large endeavors at this point at NASA. So it's 
that balancing act that we're doing with them as we've done 
with Commercial Cargo and such when were in the development 
phases for those.
    Mr. Posey. Okay. Have you signed any contracts yet?
    Mr. Crusan. No, we've not. The RFI was the first step 
towards that.
    Mr. Posey. Okay. And when do you anticipate we would be 
doing contractual agreements?
    Mr. Crusan. We're preparing for the solicitation as we 
speak, basically was informed by the Request for Information 
that was done only a couple months ago.
    Mr. Posey. Okay. That's good.
    Thank you, Mr. Chairman. I yield back.
    Chairman Babin. Yes, sir. Thank you.
    Now I'd like to recognize the Ranking Member of the full 
Committee from Texas, the gentlewoman, Ms. Johnson.
    Ms. Johnson. Thank you very much.
    Let me express my appreciation for your interest, 
motivation and enthusiasm for what you are doing, and hope that 
it'll inspire the next generation of thinkers for the future.
    I want to ask you who you anticipate or do you have any 
ideas of who your customers will be from the private sector 
service for vacationing or whatever? How do you anticipate 
seeking them?
    Mr. Richards. So that's--thank you for that question. We 
already have customers so we've been marketing for a number of 
years now. An example is, we'll be delivering a lunar telescope 
for a private customer starting with a precursor, then a large 
system to the south pole of the Moon in 2019, and this is a 
nice nexus of science, of commerce, of private investment 
capabilities with a global scientific foundation, but led by a 
U.S. entrepreneur. So that's one of the examples of how science 
and commerce can intertwine. Our maiden mission has a full 
manifest, and we're marketing into our future missions now.
    Ms. Johnson. How do you anticipate determining the cost for 
services?
    Mr. Thornton. So first for us, it starts with the customer. 
We have customers the world over that are interested in flying, 
and I think that's a really notable important thing because we 
started ten years ago, and 7, eight years ago, there were no 
customers. It was too new. People thought it was a little 
crazy, frankly, but all good ideas start as crazy ideas and 
then they become reality. So we have 115 customers interested, 
everything from space agencies to commercial organizations, 
even down to universities and people that are just looking to 
inspire folks. We have a time capsule from Japan that is 
collecting the dreams of children from Asia, and they have more 
than 100,000 kids signed up sending their dreams. So we have 
all sorts, shapes and sizes of payloads attached.
    In terms of the pricing and how to address that, it's about 
what can cover our costs fundamentally. The majority of our 
cost is the launch cost, so as the costs of the launch vehicles 
come down, that will drive our prices down as well. Part of the 
reason that we build the same spacecraft again and again is 
we're looking to get that cost efficiency improved even more, 
but so far our price at $1.2 million per kilogram is accepted 
by the market and we already have numerous deals at that price 
point.
    Ms. Johnson. That sounds good. You know before now, there's 
been lots of thought of attempting to retrieve or save 
artifacts from the Moon. Have you considered retrieving any of 
the artifacts or have you given that any thought?
    Mr. Thornton. So we haven't started looking at retrieving 
artifacts. We think of what's on the Moon is memorials, 
permanent memorials, and one day, museums and potentially even 
national parks to go visit on the service of the Moon. Each one 
of our missions that landed a man on the Moon and all the 
precursors that led up to it, that's a really important part of 
history. So we intend to certainly have a keep-out zone and 
make sure that we don't land too close to it because it is 
possible to damage those if you land too close, but we think 
about it as a memorial for all time, and we think of our early 
landers the same way. We're essentially sending a snapshot of 
humanity for our first mission, and it's going to be a sampling 
of people all over the world. We have six nations flying with 
us on our first mission and many more that are interested in 
coming with us. So we're all about making the Moon accessible 
to the world, and I think those first landings will be 
monuments to just that.
    Ms. Johnson. You know, several years ago I was trying to 
find a vehicle to try to preserve some of the debris and 
artifacts, and the only place I could find was under the Parks 
Act. And so when I introduced the resolution, the news had it 
that I was attempting to establish a park on the Moon. I was a 
little embarrassed, but young people in high schools were very 
concerned and very enthusiastic about the possibility of 
establishing a park on the Moon, which I didn't have in mind at 
all. But what it reminded me of is how we do stimulate the 
young mind to think forward. So I encourage you to continue to 
think forward. Just don't send us the bill. Thank you.
    Chairman Babin. Yes, ma'am. Thank you.
    Now I'd like to recognize the gentleman from Florida, Dr. 
Dunn.
    Mr. Dunn. Thank you very much, Mr. Chairman. It's certainly 
exciting to have such an august panel and talking about a space 
economy that's genuinely prosperous. That's just so exciting to 
be in space.
    Let's start with a lightning round of questions real quick 
if I can. What is the number one thing that you think is the 
most important to the United States as a whole, number one 
thing, just sort of a lightning round and we'll go right down 
the panel. We'll start with Mr. Crusan.
    Mr. Crusan. For me, it's continued human presence in space.
    Mr. Richards. And expanding human presence in space with 
the United States in the lead of it.
    Mr. Thornton. It's making the Moon accessible to the world 
and U.S. leadership in doing so.
    Mr. Alexander. I would agree that it's U.S. leadership in 
space, and I think the Moon is the right focus for the near 
term.
    Dr. Sowers. It's creating that space economy and developing 
the propellant resources on the Moon.
    Mr. Dunn. Outstanding. So great answers.
    Again, just because we're, you know, the Congress of the 
United States, Mr. Crusan, how do you think this affects 
national security?
    Mr. Crusan. So with space, you have resources. With 
resources come different demands and different agendas. So I 
think from a national security point of view, the understanding 
of fundamental resources that exist in our nearest neighbor is 
incredibly important for us. It can help influence our human 
spaceflight architectures for sending humans further out into 
space. So first order of understanding what is there and what 
is its value to us as the United States.
    Mr. Dunn. Great, great.
    Mr. Thornton, you mentioned you had 115 customers? Okay. So 
what's the difference between your commercial customers and 
your government customers?
    Mr. Thornton. Sure. Just to clarify, we have 115 payloads 
in our pipeline, so it's our sales pipeline, but the difference 
that we have, about half of that is government, big and small 
around the world. Half of that is commercial. About half of the 
commercial part is new startups, and then the other half are 
established organizations. DHL, who is a partner and sponsor of 
ours, is an example of that commercial side. They see the 
innovative shipping to the Moon is an extension of their global 
shipping service and they're happy to be a part of our mission.
    On the small size, people are seeing the capability of 
flying to the surface of the Moon as a means to potentially 
open their own businesses. We're seeing that with human ashes. 
We're seeing that--there's groups that are interested in having 
races on the surface of the Moon, create like a NASCAR 
experience from the Moon. We've got groups that--we just signed 
a payload that wants to create a first laser communication node 
from the surface of the Moon, and that's a huge step because 
that is two orders of magnitude more bandwidth than we would 
have otherwise. So radio is about 100, 200 KBPS so it's like a 
little bit more than a 56K modem, and then a gigabit per 
second, that's faster than most home internet connections. So 
you could have virtual reality experiences and HD video and 
pictures streaming back from the Moon. So it really stands to 
have a fascinating and immersive experience for people back 
here on Earth.
    Mr. Dunn. Outstanding. Anything to add to that, Mr. 
Richards or Mr. Alexander?
    Mr. Richards. Well, the excitement is genuine about the 
potential for the markets. We've got our heads down in the hard 
job right now of actually proving we can land on the Moon, and 
getting the technology right, it's a very hard thing to do, and 
only three superpowers have ever done it. So while having great 
confidence that these amazing markets are going to open up, 
we're focused right now on getting it right, and not having all 
our eggs in one basket. We have purchased several launches. 
Although we look across the spectrum of emergent and existing 
launchers agnostically, anybody going our way to Earth orbit, 
we'd be happy to buy a ride if it's at the right price, but 
we're after collapsing the cost of access to the Moon and other 
destinations after Earth orbit.
    Mr. Alexander. I would just add that, you know, returning 
to the Moon is a worthy endeavor. There are a lot of resources 
there as we talked about to bring into the economic sphere of 
humanity, and to do that, we need to go back in a fairly big 
way. So we have designed a lander that can take a lot of those 
capabilities to the surface of the Moon and eventually support 
human return to the Moon. It's important to do from a U.S. 
leadership perspective. It's important to do from an economic 
perspective but it requires a concerted effort.
    Mr. Dunn. We're going to run out of time here. I have more 
questions than I could possibly ask in half an hour, but let me 
go back to Mr. Bera's question because I thought that was a 
great one, and I didn't really hear an answer.
    I'm going to ask Dr. Sowers, who owns the water, or who 
should own the water? You got around that when he asked you 
last time.
    Dr. Sowers. Yeah, I think the people that discover it and 
develop it should own it. I mean, that's a ``should.'' You 
know, I think we need to make sure that we can establish a 
framework, you know, regulatory or legal framework that makes 
that the case.
    Mr. Dunn. So pirates in space. I love that.
    Thank you very much, Mr. Chairman. I yield back.
    Chairman Babin. Yes, sir. Thank you.
    Now we're going to go to the gentleman from Virginia, Mr. 
Beyer.
    Mr. Beyer. Mr. Chairman, thank you, and Mr. Chairman, I'd 
like to start with an announcement, talking about pirates in 
space, that we had Andy Weir here, who wrote The Martian, last 
year, who's a rock star. He was sitting right where Dr. Sowers 
it. And yesterday they announced his new book, Artemis, which 
is about a smuggler on the Moon, and it comes out November 
14th, so that'll be fun.
    First question really is for Mr. Crusan. In Mr. Thornton's 
testimony, he talks about NASA authorization, Congress and NASA 
on authorizing Frontier class lander services similar to the 
Venture class launch services. What's your perspective on that, 
and how does that fit in with NASA's vision?
    Mr. Crusan. So it's actually right in line with what we 
were thinking about doing here now is we're proceeding towards 
actually buying landed services. That is in essence what he's 
suggesting. It's just a fundamental of what scale do you go to 
at what time, and we want to make sure that we're buying 
services that are kind of on the same scale as industry is 
growing, so just matching that growth rate and having the 
government as a customer, not the sole provider or purchaser of 
services. That's the balance that we've been seeking from the 
NASA side.
    Mr. Beyer. Great. Thank you.
    Mr. Crusan, Ranking Member Johnson asked a question about 
artifacts. As you develop the Lunar CATALYST program, has there 
been discussion of the U.S. government artifacts on the Moon 
and any steps to protect and preserve them?
    Mr. Crusan. Yeah, in fact, actually, we did develop a 
standard and published it about interaction effects for any of 
the Apollo landing sites, and we worked collaboratively with 
the Google Lunar XPRIZE and actually many of the industry folks 
that are here at the table, and agreed on those standards and 
stand backs from those locations, making sure we don't have 
things like plume interactions of dust settling and covering up 
footprints, and we publically posted those standards out there, 
and industry has accepted those as guidance for their future 
missions that they want to conduct.
    Mr. Beyer. Great. Thank you.
    Mr. Richards, you've clearly been a visionary in this for a 
long time. One of the big debates in this Committee, we talked 
to the previous NASA Administrator and said what's the big 
picture, what's the constancy of purpose with NASA, and he said 
very simply, ``Mars.'' So one of the debates here has been, do 
we go directly to Mars or do we go to the Moon first, and 
there's a big division obviously within the space community 
about this. Is this development of the private sector Moon 
stuff a way to have our cake and eat it too?
    Mr. Richards. So it's all of the above. The Moon is not an 
off ramp to Mars, it's an on ramp to Mars, and by building--you 
know, to go to space to stay, it has to pay, so by building out 
infrastructure and capabilities in a cislunar economy, we can 
assure that a balanced partnership between the government and 
the private sector will learn how to live off-planet, we'll 
learn how to use the resources that are out there and that will 
dramatically lower the cost of going to Mars, and we'll learn a 
lot about our human condition, things that humans have never 
experienced being that far from Planet Earth. We can practice 
those things and learn a lot by practicing at the Moon.
    But it's not just the way to get to Mars. It's also a 
definitive destination of itself. I look forward to the 
generation of kids that'll look up and see lights on the Moon. 
You know, there'll be a completely different perspective of 
humanity as a spacefaring and a multi-world civilization.
    And I would like to comment on, you know, a number of 
questions and who owns the Moon and who owns the water. So the 
United States Congress--thank you--answered that question for 
us in 2015. We will talk about that, but what you said was, 
those who go peacefully under the auspices and with due regard 
to the international treaties will own what we peacefully 
obtain, and this is not an appropriation question, but also 
with Moon Express. Before I could assure our investors that we 
could blaze a trail to the Moon, I had to blaze a trail through 
the regulatory framework that would allow us to go there. So 
Moon Express in 2016, thank you to a number of members in this 
room, achieved the first ever U.S. authorization for private 
sector missions beyond Earth orbit and to the Moon under the 
terms of the Outer Space Treaty.
    Mr. Beyer. Great. Thank you very much.
    Mr. Alexander, I only have 30 seconds. One of the things 
you recommended was streamlining the licensing of commercial 
launches. How do we go about that process?
    Mr. Alexander. I think there's a couple of different 
issues. We have an issue with licensing of commercial launches, 
which currently the expendable launch vehicle framework that's 
been used for the last 20 years is sort of duplicated between 
the Air Force and the FAA, and those of us developing reusable 
launch vehicles like New Glenn are being licensed under an FAA 
regime and so there's reusable launch vehicles and so there's a 
little bit of duplicative work that has to be done with the FAA 
and the Air Force.
    I think separately to Bob Richards' comments there about 
licensing activities beyond launch and beyond Earth orbit that 
clarity that he responded or reflected in getting the first 
license for an activity on the Moon, finding a home for that 
within the U.S. government is also an important matter.
    Mr. Beyer. Thank you, Mr. Chairman.
    Chairman Babin. Yes, sir. Thank you.
    And now I'd like to recognize the gentleman from 
California, Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman, and I 
can't tell you how great it is to be here listening to people 
talk about a mission that we can accomplish. We sit here 
listening about people wanting to spend billions and billions 
of dollars on mission impossible, which is Mars, and I take it 
that right now we actually have the capability if we actually 
commit the resources to accomplish the mission to the Moon now. 
Isn't that correct? Yes or no?
    Mr. Crusan. Technically no objections.
    Mr. Richards. Absolutely the capability, and we would love 
to partner.
    Mr. Thornton. Absolutely. All systems go.
    Mr. Alexander. Yes, absolutely.
    Dr. Sowers. Yes.
    Mr. Rohrabacher. Okay. Now, if we did that same question to 
people about well, are if we spend the billions of dollars for 
the Mars mission, are you sure we're going to be able to 
accomplish this? I don't think we would have anywhere near the 
same answers that we just got.
    And, you know, sometimes it is really difficult to get our 
country and our government and our bureaucracy even when it's 
at NASA to sort of focus on what we can do even though we're 
not doing it now, and I remember that when I first got here, 
which was a long time ago now in this very same Committee, that 
we had to force NASA into trying to do its mission around the 
Moon instead of around the equator of the Moon that we had to 
convince them maybe doing the orbit would be really important, 
and we actually had to force them to do it, and I will tell you 
because there were some visionaries who said there might be ice 
at the polar areas which we could use then as a very important 
component of future travel in space but also things we could do 
with hydrogen, et cetera. Let me note the person who made that 
argument to me originally is sitting right over there. His name 
is Jim Muncy, who is one of the real pioneers of--there you go, 
Jim. You get the credit, and he should get the credit because 
he was a visionary and could see the importance of making sure 
whether there was water there or not, and why always, always go 
around the equator and not around the polar areas to find out 
what was going on in the Moon.
    So let me just suggest that this is a very exciting 
potential and, you know, a lot of people--you know, half the 
world--I don't know if you know this--half the world when they 
look at the Moon, they see a man on the Moon, but the other 
half of the world sees what? A rabbit in the Moon. So when you 
look at the Moon next time, half the world doesn't even seen a 
man in the Moon. One thing that really worked for us when we 
were leading the world when it came to the Moon and space 
projects is what the world looked up and they looked at the 
Moon and they say there are Americans on the Moon. That 
impressed the entire world. It's time for us to impress the 
world again, the young people of the world and their own young 
people, and the potentials that you've talked about today are 
very exciting.
    Let me ask this. One of the things that I have advocated 
over the years when it comes to commercial space activities is, 
we should be encouraging them. Instead of giving them 
subsidies, we could give them tax breaks, and I have a piece of 
legislation that suggests commercial activity in space, zero 
gravity should be zero taxed. Would that type of approach be 
helpful to any of your operations in terms of making sure that 
the tax load that you wouldn't have to be carrying the burden 
of a tax load up to space with you, and just your thoughts on 
zero gravity, zero tax, right down the line.
    Mr. Richards. So quickly, as an interim measure, that 
certainly sounds attractive. You know, I believe that the first 
companies--the first trillionaire companies will be created 
through investments in space resources, so eventually that will 
be a tax base, but zero G, zero tax is great. You might also 
think about things like R&D tax credits for companies that 
typically invest in resource development, and it's that type of 
money that we're going to have to invest in space.
    Mr. Rohrabacher. But of course, if you think you're going 
to be successful and you're saying there's not going to be a 
capital gains tax on someone who invests in your company, 
that's pretty powerful.
    Mr. Thornton. I'd echo that it's certainly an interesting 
idea and certainly could help. The space is really hard. It's a 
very, very challenging environment, and building a business 
around space is doubly hard. So anything that can support that 
is certainly something we would support ourselves.
    Mr. Rohrabacher. Okay.
    Mr. Alexander. I would echo what both of the gentlemen 
said, that, you know, revenue-based tax credits are helpful or 
tax rates, low tax rates, but also the R&D tax credits as well.
    Dr. Sowers. You know, I think all of these guys are going 
to say that, you know, tax breaks look good to them. I think if 
we're going to invest, I think, you know, maybe perhaps better 
leverage in our investment is some of the basic science and 
R&D. For example, you know, we need the guys with the mules and 
the picks on the Moon to see, you know, where the real 
motherlode of the ice is, and investment in some of those kinds 
of things which actually, you know, lowers investment risk for 
commercial operation maybe also something to consider.
    Mr. Rohrabacher. Well, tax breaks as compared to subsidies 
give greater decision-making to the entrepreneur, and when you 
were talking about subsidies, which have to be approved from 
government officials, you have more bureaucratic decision-
making, and I would just suggest, Mr. Chairman, that we unleash 
our entrepreneurs and we will be very pleased with what--our 
future generations will be very pleased with our 
accomplishments. Thank you very much.
    Chairman Babin. Yes, sir. Thank you.
    I now recognize the gentleman from Colorado, Mr. 
Perlmutter.
    Mr. Perlmutter. Thank you, Dr. Babin.
    Thank you all for your testimony today. I want to say to 
Dr. Sowers, I have my Colorado School of Mines tie on today, 
and I want to applaud you for leading the space resources 
department at the college, so thank you very much.
    I have two themes I'd like to talk about. One is property 
rights and the other is Mars. To my friend, Mr. Rohrabacher, 
we're going to get there by 2033.
    So let's start with property rights. Mr. Richards, I'd like 
to talk to you about that. And I think you're right. I think in 
2015, we gave a lot of comfort to entrepreneurs such as 
yourself and the other companies to get out there, but I would 
ask you so the section I think you're referring to is 51303, 
Asteroid Resource and Space Resource Rights, and it says 
``shall be entitled to any asteroid resource or space resource 
obtained including to possess, own, transport, use and sell the 
asteroid resource or space resource obtained in accordance with 
applicable law including international obligations.'' So what 
is the applicable law? I mean, I don't want to be like a judge 
sitting up here but I think we need to--personally, I think 
we've got more work to do to provide the framework that Dr. 
Sowers was talking about.
    Mr. Richards. There's a lot more work to do. It's a global 
conversation, and I applaud the United States for taking the 
step forward of explicitly saying what I think was implicit in 
the Outer Space Treaty. There are a number of treaties but the 
Outer Space Treaty is the predominant one that dictates how 
humans are going to behave in space and to each other in space.
    So saying that, staying away from the question of property 
rights and that term, although I think we know what it means in 
this chamber, internationally is incendiary at this point, and 
in Moon Express's case, none of our investors said hey, make 
sure you have those property rights down or we can't invest. 
That wasn't the case. I believe that there will be an ongoing 
conversation. We don't have to answer all the questions today 
but the step that was taken was a very forward step that was 
very much appreciated.
    The next step for us of getting the authorization under 
that law and in due regard to the Outer Space Treaty, even 
though there wasn't a regulatory framework for us to even apply 
for a Moon Express mission, we created one out of thin air and 
with the support of many agencies received a one-time 
permission to do so. So this is still evolving, and it's--the 
onus is on private sector individuals and companies to behave 
properly and do things responsibly and think about them because 
it will be a global conversation.
    Mr. Perlmutter. And I guess my concern, and Mr. Thornton 
and Mr. Alexander, if you guys want to chime in, is just, Dr. 
Sowers talked about pirates, but we're talking about mining, 
we're talking about taking resources, so, is there title? Is 
somebody jumping somebody else's claim? Exactly how do you see 
this working? Because I think from our point of view as 
legislators, we need some help trying to beef this up a little 
bit so that we don't have jumping claims or piracy or whatever.
    Mr. Richards. It would be nice not to be in a reactive mode 
forever.
    Mr. Perlmutter. All right. So let me ask Mr. Thornton.
    Mr. Thornton. So in our view, the Commercial Space Launch 
Competitiveness Act of 2015, currently that's sufficient for 
where we're at. We don't view that as a barrier for development 
or investment or partners to even invest or send payloads in 
the resources realm. So currently, we don't see the strong push 
for additional change at the moment.
    It's also reassuring that the government of Luxembourg 
recently had a similar thing where they could say that 
Luxembourg companies could own the rights for resources. So 
we're starting to see international----
    Mr. Perlmutter. Activity?
    Mr. Thornton. -- activity, and then also agreement with the 
norms that the United States is creating.
    Mr. Perlmutter. Mr. Alexander?
    Mr. Alexander. I think it's important for the U.S. 
government through the State Department to be talking 
internationally with its counterparts, particularly in the U.N. 
Committee on Peaceful Uses of Outer Space about what the Space 
Treaty, Outer Space Treaty, allows and how we're interpreting 
that. It's important for us as an industry to have the 
certainty that comes with, like you said, with the 2015 law but 
also that it's founded in the Outer Space Treaty, which 
basically say that those resources are available to everybody 
so that when we go, let's say, to the Moon and discover water 
ice there, we're not saying now we own every piece of resource 
on the Moon and every bit of water ice on the Moon; we're 
saying, you know, we are able to utilize what we are able to 
extract and be able to sell that and have property rights over 
that but not rights to the entire Moon. So I think it's 
important from a government perspective that we go out and 
explain what our interpretation of the treaty is and the 
framework that we're establishing and lead by example.
    Mr. Perlmutter. Thank you. If you would indulge me with one 
more minute of questions?
    Chairman Babin. Can I make one----
    Mr. Perlmutter. Yes.
    Chairman Babin. --just say one thing? And what you guys are 
talking about demonstrates the importance of why the House and 
the Senate need to get this American Space Free Enterprise Act 
completed. Go ahead.
    Mr. Perlmutter. So to Dr. Sowers and Mr. Crusan on the Mars 
theme I'd like to talk about. How do you see us working with 
the private sector or international partners and going to the 
Moon and developing some commercial activities up there? How 
does that help us in your opinions to get us to Mars? Dr. 
Sowers?
    Dr. Sowers. Well, I'll just give you one example. If you 
can develop the water resource on the Moon into propellant, 
there's studies that have been done, there was a recent one 
done out of MIT that suggested that you could reduce the cost 
of a Mars mission by about a factor of three. You know, clearly 
there's assumptions in there, you know, and you have to assume 
things about the nature of the resource and the cost to extract 
it and refine it but with reasonable assumptions, you know, a 
factor of three seems quite doable. So, you know, the resources 
on the Moon could be immensely valuable in helping us get to 
Mars.
    Mr. Perlmutter. Mr. Crusan?
    Mr. Crusan. Yeah, these are not mutually exclusive 
activities. Our human spaceflight plans right now, we're 
working on concepts of deep space gateway and transport-type 
architecture that then also working with the commercial 
industry on landed and surfaces, we can conduct tests of 
technologies, advancement of understanding of the resources, if 
the resources are there, is there a means by which to get them 
from there to a staging point that we can use for deep space 
transportation in addition to that. So these activities don't 
need to be mutually exclusive.
    Mr. Perlmutter. All right. Thank you, and thanks, Mr. 
Chair. I yield back.
    Chairman Babin. Yes, sir. Thank you.
    I want to thank the witnesses for their very valuable and 
exciting testimony today and your answers, and the Members for 
the questions that we've asked. The record will remain open for 
two weeks for additional comments and written questions from 
Members, because I know I have one that I would like to ask as 
well, but I want to say this: Thank you for being here.
    This meeting is adjourned.
    [Whereupon, at 11:32 a.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
